<html>
<title> - ACCOUNTABILITY AND TRANSFORMATION: TIER RANKINGS IN THE FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   ACCOUNTABILITY AND TRANSFORMATION:
                   TIER RANKINGS IN THE FIGHT AGAINST
                           HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

                           Serial No. 114-64

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ___________
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-307PDF                  WASHINGTON : 2015                       
                                 
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Lagon, president, Freedom House (former 
  Ambassador-at-Large for Trafficking in Persons, U.S. Department 
  of State)......................................................     8
Fr. Shay Cullen, president/chief executive officer, PREDA 
  Foundation.....................................................    21
Mr. Matthew Smith, executive director, Fortify Rights............    62
Mr. Jesse Eaves, director of policy and government relations, 
  Humanity United................................................    80

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Lagon: Prepared statement.....................    12
Fr. Shay Cullen: Prepared statement..............................    26
Mr. Matthew Smith: Prepared statement............................    65

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  written responses from:
  The Honorable Mark Lagon.......................................    92
  Fr. Shay Cullen................................................    94
The Honorable Christopher H. Smith: AP investigation, ``Are 
  slaves catching the fish you buy?''............................    97


                   ACCOUNTABILITY AND TRANSFORMATION:.
                   TIER RANKINGS IN THE FIGHT AGAINST.
                           HUMAN TRAFFICKING

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:41 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. The subcommittee will come to 
order, and welcome. First of all, let me apologize to all of 
you, our witnesses and our guests. We did have a series of 
votes that went a little bit longer than what we thought so, 
again, I want to apologize for convening this more than an hour 
late.
    Welcome to today's hearing on the importance of 
accountability in the annual Trafficking in Persons Report, the 
State Department's biggest opportunity of the year to prod 
countries to fight human trafficking with greater effect, 
greater efficiency, and greater effort.
    There are some 20-plus million people around the globe who 
live in sex or labor slavery today. When one hears such a 
figure, over 20 million people, one's eyes begin to glaze over 
as a number of such magnitude becomes an abstraction. There is 
a cynical saying attributed to Soviet dictator Joseph Stalin 
that ``The death of one man is a tragedy. The death of millions 
is a statistic.'' Stalin knew that many would shrug their 
shoulders and avert their gaze.
    But we must never allow such cynicism to obscure the fact 
that each of those 20 million persons is a human being with 
inherent God-given dignity. Each one is a child that suffers 
from beatings and abuse, a woman raped, or a man who labors in 
the field as a slave, all for the commercial gain of others.
    The annual Trafficking in Persons Report required by the 
landmark Trafficking Victims Protection Act of 2000, 
legislation which I authored, ensures that countries making 
anti-trafficking efforts a priority are praised and supported, 
while countries that ignore the cries of the enslaved are 
justly shamed and considered for sanctions.
    The success of the TIP Report and rankings is beyond 
anything we could have hoped for. From presidential suites and 
the halls of Parliaments to police stations in remote corners 
of the world, this report focuses anti-trafficking work in 187 
countries on the pivotal principles of prevention of 
trafficking, prosecution of the traffickers, and protection of 
the victims.
    Each year the trafficking office at the Department of State 
evaluates whether a government of a country is fully compliant 
with the minimum standards for the elimination of human 
trafficking prescribed by the TVPA or, if not, whether the 
government is making significant efforts to do so. The record 
is laid bare for the world to see and summarized in a tier 
rankings narrative. Tier 1 countries fully meet the minimum 
standards. Tier 2 do not meet the minimum standards, but are 
making significant efforts to do so. Tier 3 countries do not 
meet the standards and are not making significant efforts to do 
so, and indeed, may be subject to sanctions.
    Over the last 14 years more than 100 countries have enacted 
anti-trafficking laws, and many countries have taken other 
steps required to significantly raise their tier rankings. Some 
countries openly credit the TIP Report for their increased and 
effective anti-trafficking response--kind of look at it as a 
mirror and look to us for examples of how to do even better.
    Last year, for example, I was invited by the speaker of 
Peru's unicameral Congress to address legislators on how to 
protect victims of trafficking, meeting also with prosecutors, 
members of the multi-agency task force, victims and those who 
provide for the victims.
    The Tier 2 Watch List was created in the 2003 TVPA 
authorization, which I also authored, to encourage good-faith 
anti-trafficking progress in a country that may have taken 
positive anti-trafficking steps late in the year. 
Unfortunately, some countries made a habit of a last-minute 
effort and failed to follow through year after year, 
effectively gaming the system.
    To protect the integrity of the tier system and to ensure 
that it worked properly to ensure progress, Congress in 2008 
created an automatic downgrade for any country that had been on 
the Tier 2 Watch List for 2 years but had not taken significant 
efforts to move up a tier. The President can waive the 
automatic downgrade for an additional 2 years if he has 
certified credible evidence that the country has a written and 
sufficiently-resourced plan that if implemented, would 
constitute significant efforts to meet the minimum standards. 
In 2013, the first test of the new system, China, Russia, and 
Uzbekistan ran out of waivers and moved to Tier 3, which 
accurately reflected their records.
    In 2014 reporting cycle, only Thailand and Malaysia were 
auto-downgraded out of six countries. Russia and Uzbekistan 
retained their Tier 3 downgrades from the previous year, but 
China was upgraded from Tier 3 to the Tier 2 Watch List which I 
consider to be a very big mistake.
    I am very concerned that China fooled the State Department, 
which seemed to believe that China was abolishing its 
reeducation through labor camps, rather than simply renaming 
the camps and continuing the practice. The Congressional-
Executive Commission on China reported that in 2013, Chinese 
authorities increasingly used other forms--their word--of 
arbitrary and administrative detention such as legal education 
centers, custody and education centers, black jails, and 
compulsory drug detoxification centers.
    Moreover, the Commission reported that in 2014 the Deputy 
Director of China's Ministry of Justice said at a press 
conference that ``The vast majority of China's reeducation 
through labor facilities have been converted to compulsory drug 
detox centers.'' The China Commission believes that these 
compulsory drug detox centers force detainees to do labor and 
do the custody and education as do those other centers.
    If true and I believe it is, then the Chinese Government is 
directly involved in human trafficking and profiting from it. 
The Chinese Government also continues, through its one-child 
birth limitation policy, to absolutely decimate the female 
population, creating a vacuum for sex and bride trafficking in 
China, as males confronted with a sentence of lifetime 
bachelorhood obtain or seek to obtain a mate.
    Despite a much-ballyhooed November 2013 government 
announcement of a relaxation of the one-child policy that 
affects only a small subset of the population, this fig leaf 
will not do enough to correct the gender imbalance in China, 
the missing daughters as we so often call them.
    Last summer a local official at the Mid-Year Family 
Planning Work Meeting in a municipality noted that<greek-l>, 
quote, deg. ``The intensity of family planning work has not 
diminished,'' and of course that includes coercive abortion and 
coercive sterilization.
    The U.N. Committee on Economic, Social and Cultural Rights, 
following its May 2014 review of China, noted that it 
was<greek-l>, quote, deg. ``Seriously concerned about reported 
instances of use of coercive measures, including forced 
abortion and forced sterilization, with a view to limiting 
births.'' Of course this is absolutely unacceptable and a gross 
violation of women's rights.
    Approximately 40 million women--and some put it far, far 
higher--girls and women are missing from the population and 
China's birth limitation policy continues to increase that 
number making China a regional and maybe even a world, but 
certainly a regional, magnet for sex and bride trafficking of 
women from neighboring countries such as Burma, Cambodia, 
Vietnam, Laos, and North Korea.
    Indeed, an estimated 90 percent of North Korean women 
seeking asylum in China are trafficked as brides and yet China 
does not take responsibility for the government-made disaster 
and provide these women with aid. Rather, China denies the 
women refugee status, sends them back to punishment in North 
Korea, sometimes execution. Yet we gave China a pass last year 
turning our backs on these suffering women, and that really is 
objectionable.
    But Asia is not the only place where there are victims of 
trafficking. This afternoon's hearing will also look at three 
African countries that must be automatically downgraded unless 
they significantly improve efforts to fight human trafficking 
in 2014--Burundi, Comoros, and Angola. The shared tragedy of 
these countries is that their children are being trafficked. 
Chinese nationals in Angola, for example, exploit the Angolan 
children in construction, rice farming, and brick making. In 
Comoros, poor families place their children with wealthy 
relatives who then exploit them in domestic servitude. 
Similarly, in Burundi, family members sometimes profit from the 
prostitution of children with tourists, or according to the 
State Department, teachers, police officers, gendarme, 
military, and prison officials.
    In 2013 as an automatic downgrade loomed, the President of 
Comoros finally admitted his country had a serious trafficking 
issues and the National Assembly changed its penal code. Angola 
and Burundi have also amended their penal codes while on the 
Watch List. Aggressive implementation of these anti-trafficking 
laws would keep people off Tier 3, as well as protect children 
from trafficking. And I very earnestly hope implementation has 
been a priority.
    The southeast Asia region continues to struggle with 
particularly acute and entrenched human trafficking. Thailand 
and Malaysia were downgraded to Tier 3 last year. Burma must 
receive a Presidential waiver this year to avoid Tier 3.
    One of the key drivers of intense human trafficking in the 
region is the vulnerability and desperation of the Muslim 
minority Rohingya people. Squalid living conditions in 
displacement camps, discrimination, child limitation, and 
violence are pushing the Rohingya out of the Buddhist-dominated 
Burma into the hands of human traffickers who claim to have 
jobs for them in Muslim-majority Malaysia. However, according 
to reports, including some by Reuters last year, many Rohingya 
never made it to Malaysia, instead ended up in tropical gulags 
in the jungles of Thailand, where they were held for ransom. 
Many die from abuse and disease. Those who cannot pay the 
ransom are sold into sex slavery or forced labor, often in the 
fishing industry. Thai General Prayut Chan-o-cha has vowed to 
crack down on many of the Thai authorities involved and to 
bring an end to the practice.
    While we have seen an impressive number and variety of 
anti-trafficking efforts in Thailand during last year, 
including a new law in March that heightened penalties to life 
imprisonment for traffickers, prosecutions have significantly 
diminished in the last year. Prosecutions regarding trafficking 
of Rohingya migrants seem particularly low as well. 
Nevertheless, over the last year, Thailand has taken concrete 
steps to register nearly 100,000 migrants, amend laws related 
to the fishing sector, raise the minimum age for labor at sea 
to 18, set mandatory rest periods and employment contract 
requirements, and inspect hundreds of boats.
    And we also need to look at ourselves and ask whether we 
are complicit in abetting trafficking, perhaps unwittingly. 
Last month, for example, the Associated Press documented Thai 
boats picking up seafood in Indonesia caught by Burmese slaves 
who when not at sea are kept in cages on remote Indonesian 
islands. The seafood was taken back to Thai ports and processed 
by the company that owns Chicken of the Sea. Much of the 
tainted seafood may have entered the supply chain to reach the 
shelves of American grocery stores, and through vendors such as 
Sysco, have landed on the plates of our service men and women.
    There are nevertheless success stories as well, and 
Thailand has been a stalwart partner with the United States in 
fighting sex tourism that drives sex trafficking. The 
Philippines has also worked with us in fighting sex tourists 
and helping the victims of trafficking. Indeed, one of the 
witnesses we will hear from this afternoon is a priest, whose 
faith-based organization has helped thousands heal from the 
horrors of human trafficking.
    Finally, a word to those who think that our TIP Report 
embarrasses allies and undercuts our efforts to cultivate 
friendly ties around the globe, I will never forget when two of 
our closest allies, Israel and South Korea, at one point, were 
both on Tier 3, the worst rank. I remember meeting with their 
Ambassadors who had files demonstrating to all of us and anyone 
who would listen that measures were being undertaken to 
mitigate this terrible crime, and both of those countries got 
off Tier 3 when they backed their words with substantive 
action. Rather than alienating them, the exercise underscored 
that friends watch out for each other and that we must call 
upon our friends to live up to the high ideals that they 
profess. Ultimately, countries that do live up to their ideals, 
show they value and treasure their citizens, their greatest 
resource, in the long run will benefit the most.
    And before I recognize my friend and colleague Ms. Bass, I 
would like to recognize Christian Boujaoude who is age 16 who 
is in the audience. He is from my district from Eatontown, New 
Jersey. He and his parents, Elias and Maureen. A junior at 
Monmouth Regional High School, Christian, in recent months 
coordinated the labeling and shipping of 2,000 bars of soap 
with human trafficking messages to Arizona hotels prior to the 
Super Bowl there. He also successfully urged a number of 
Monmouth County towns to issue proclamations recognizing 
January 11th as National Human Trafficking Awareness Day. I 
want to thank him for his work in raising awareness about 
trafficking and for taking the time for being at today's 
hearing.
    Ms. Bass. Where is he?
    Mr. Smith of New Jersey. Christian? In the back.
    Ms. Bass. Stand up.
    [Applause.]
    Mr. Smith of New Jersey. Ranking Member Bass.
    Ms. Bass. Thank you, Mr. Chair. I see you are taking care 
of the next generation of leaders in your district. So I want 
to join in congratulating you. It is wonderful that you are 
here today.
    Again, I want to thank the chairman for your work and your 
leadership in this area, and I know that the TIP Report, you 
are one of the reasons why the TIP Report exists, your 
legislation and all that you have been doing over the years. I 
also want to thank our distinguished witnesses including the 
Honorable Mark Lagon, former Ambassador-at-Large for 
Trafficking in Persons at the State Department as well as 
tireless advocates from civil society, and I look forward to 
hearing your perspectives.
    During the hearing I also look forward to hearing 
strategies to address specific types of trafficking, both 
domestically and abroad, while embracing an inclusive approach 
that acknowledges that human trafficking affects U.S. citizens 
and foreign nationals. I think it is wonderful that other 
countries are looking to us for our leadership, but I think it 
is also critical that we always hold ourselves accountable as 
well, because we do have a domestic trafficking problem here.
    And as a matter of fact, today, I believe, or maybe 
tomorrow, over in the Senate, hopefully they will finish 
legislation that was passed out of this House, unanimously, to 
address sex trafficking domestically. One of the areas of sex 
trafficking domestically that I am concerned about are the 
children in the child welfare system who fall through the 
cracks, a lot of times have been cast as runaways and we find 
out now have been abducted and put on the streets and some of 
them being pimped by street gangs. So holding the rest of the 
world accountable is very important and it is critically 
important to holding ourselves accountable as well.
    So again I want to thank our witnesses today and all of 
your leadership in combating trafficking is inspiring and has 
truly made a difference around the world. With that I yield.
    Mr. Smith of New Jersey. Thank you so very much.
    Mr. Cicilline?
    Mr. Cicilline. Thank you Mr. Chairman, and I thank you and 
Ranking Member Bass for holding today's hearing. And I 
particularly want to thank you, Mr. Chairman, for your long 
leadership on the issue of human rights. And certainly, on the 
issue of human trafficking and the work that you did, the 
really groundbreaking work, have produced the TIP Report and 
this ongoing responsibility for Congress to both understand 
this issue and be sure that we are demanding action around the 
world to eradicate human trafficking. Thank you to our 
witnesses who are here for your work and for your distinguished 
service, and I certainly look forward to hearing your 
testimony.
    It is hard to believe that in 2015 that slavery, which we 
now call human trafficking, is still so pervasive around the 
world. Victims of human trafficking are deprived of their 
individual freedoms and suffer through unimaginably harsh, 
coercive, and even extraordinarily heartbreaking conditions. It 
is horrifying that reports indicate there is no place in the 
world where children, women, and men are safe from human 
trafficking.
    This means that the United States must and will continue to 
lead efforts in combating human trafficking. Every single 
country has an obligation to dedicate resources to eradicate 
the trafficking of human beings. And although we have made 
significant progress in the last decade, much work remains, and 
the United States must be prepared to impose serious 
consequences on countries in the report that do not meet 
minimum standards. And as has been pointed out, be certain that 
we are doing our part to be sure that we are eradicating 
trafficking here in our own country.
    Again I thank the chairman and ranking member for calling 
this hearing and look forward to the testimony of our 
witnesses, and I yield back.
    Mr. Smith of New Jersey. Thank you very much.
    Mr. Clawson?
    Mr. Clawson. Thank you for coming today to the four 
witnesses, and especially thankful to the ranking member and 
chairman for this hearing. Full respect for both you all.
    I think about human trafficking in business, and I always 
come at it in terms of competitiveness, meaning that low-cost 
labor or zero-cost labor creates a competitive advantage and 
therefore higher profits and that could be the driving motive 
here for folks that do things they shouldn't. And from there I 
draw from my own experience a conclusion that says an advantage 
for everyone is an advantage to no one and a disadvantage to 
everyone, and a marketplace is a advantage or a disadvantage to 
no one.
    And therefore, any solutions with respect to human 
trafficking in a competitive marketplace would have to have a 
broad involvement. Otherwise, if you cut it off in one place 
you will by definition be creating an advantage for an immoral 
actor in a different part of the marketplace. Does that make 
sense to you all?
    And so while I think it is great to fight things on 
humanitarian grounds and moralistic grounds, as we well should, 
because everyone deserves a sliver of sunshine in their life 
and a chance, but if we view how marketplaces work in a global 
economy, we also have to think about it being how we make this 
disadvantageous to all actors which therefore eliminates the 
competitive advantage of taking advantage of people.
    So in your speeches today, if you can give me a little bit 
of insight on how we can make this broad enough to really have 
a global impact, I would really appreciate the thinking along 
those lines. Thank you.
    Mr. Smith of New Jersey. Thank you very much, Mr. Clawson. 
Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. I will keep my 
remarks very brief so we can get to your testimony. I must 
admit though as we continue to have hearings with regards to 
human trafficking in a number of areas, it is an area that not 
only for the vast majority of Americans they don't realize the 
extraordinary volume of children that are being trafficked 
across the country. And for me, I think my biggest concern is 
how we continue to have hearings and meet about this, and yet 
from being effective and actually making a difference, we are 
not making a difference in a lot of these areas.
    Specifically with the TIP Report, obviously the ranking of 
some countries at Tier 3, the moving of some countries from 
Tier 3 to Tier 2 it seems ambiguous, I guess, is the best way 
to put it, or disingenuous would be a more accurate way in that 
there are conflicting agendas, at times, it seems like for 
those ratings. That being said, I look forward to hearing each 
one of your testimony on how we cannot only have a hearing, but 
that we can move this along to make sure that this scourge that 
is on our globe at least gets diminished and hopefully one day 
gets eradicated. And I thank the chairman for his leadership on 
this issue.
    Mr. Smith of New Jersey. Thank you so very much, Mr. 
Meadows.
    I would like to now introduce our distinguished panel, 
beginning first with Ambassador Mark Lagon, who was our third 
Ambassador-at-Large for human trafficking, as well as director 
of the Office to Monitor and Combat Trafficking in Persons at 
the U.S. Department of State. His record of involvement in 
human rights is long, spanning from Deputy Assistant Secretary 
in the Bureau of International Organization Affairs with 
responsibility for human rights, humanitarian issues and U.N. 
reform, through academia, where he was the chair for Global 
Politics and Security at Georgetown University's Master of 
Science in the Foreign Service program and Adjunct Senior 
Fellow for Human Rights at the Council on Foreign Relations.
    He was also the executive director and CEO of the anti-
human trafficking nonprofit, Polaris, and currently serves as 
the president of Freedom House. And he has a very distinguished 
resume and career.
    We will then hear from Mr. Matthew Smith who is a founder 
and executive director of Fortify Rights and a 2014 Echoing 
Green Global Fellow. He previously worked with Human Rights 
Watch and at EarthRights International. His work has exposed 
wartime abuses and forced displacement, crimes against 
humanity, ethnic cleansing, multi-billion dollar corruption, 
development-induced abuses, and other human rights violations. 
He has also written for a variety of major media and other 
outlets. Before moving to southeast Asia in 2005, Matthew 
worked with Kerry Kennedy of the Robert Kennedy Center for 
Justice and Human Rights on Speak Truth to Power. He also 
worked as a community organizer and an emergency services 
caseworker.
    We will then hear from Father Shay Cullen who is a priest 
from Ireland, a member of the Missionary Society of St. 
Columban and founder and president of PREDA Foundation. He has 
also worked protecting women and children from sex slavery and 
promoting human rights, peace and nonviolence in the 
Philippines since 1969.
    Father Shay established the PREDA Foundation in Olongapo, 
neighboring the old U.S. Navy base in Subic Bay to rescue 
children and women from sex slavery. He established the PREDA 
Fair Trade as a private enterprise to alleviate poverty. PREDA 
has 62 professional staff dedicated to rescuing sexually abused 
children from traffickers, brothels, and prisons, and providing 
them with therapeutic homes. He has been nominated for the 
Nobel Peace Prize three times.
    We will then hear from Mr. Jesse Eaves, who is the director 
of Policy and Government Relations at Humanity United. In this 
role he has worked to advance its policy priorities, which 
include anti-slavery projects, peacekeeping and atrocity 
prevention. Prior to joining Humanity United, Jesse was a 
senior child protection policy advisor for World Vision USA, 
where he managed an advocacy portfolio focused on child 
trafficking, child labor, child sexual exploitation, and child 
soldiers. He has worked with war-affected communities, 
assisting victims of human trafficking used as child soldiers 
and sex slaves and overseeing a community development program 
that includes counseling and education for war-affected youth.
    Very, very great contributions by all four of you, which 
this subcommittee deeply, deeply appreciates. I would like to 
now yield such time as he may consume to Ambassador Lagon.

STATEMENT OF THE HONORABLE MARK LAGON, PRESIDENT, FREEDOM HOUSE 
 (FORMER AMBASSADOR-AT-LARGE FOR TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE)

    Ambassador Lagon. Mr. Chairman, Ms. Bass, members of the 
committee, I want to thank you for inviting me. As the history 
of the TIP Report shows, seriously researched, credible reports 
assessing the performance of governments have a really 
demonstrable impact. I will say for 43 years, Freedom House's 
Freedom of the World survey has gotten the attention of 
authorities. I am learning that now in my current job. The TIP 
tier rankings are a potent tool themselves for U.S. diplomacy. 
Of course I have to say that the State Department TIP office 
needs a permanent Ambassador named and confirmed to be fully 
effective for the report to be fully useful.
    Let me look at a few key countries starting in east Asia. 
In 2013, China was automatically downgraded to Tier 3 but moved 
to the Tier 2 Watch List in 2014, due to the abolition of the 
reeducation through labor policy. Well, decades of a one-child 
policy have resulted in a deficit of 34 million women, fueling 
China's thriving sex slavery and bride trade industry. Just as 
Chairman Smith referred to, women have been kidnapped or 
trafficked from Burma, Vietnam, Laos, Mongolia, North Korea, 
and even from Africa and the Americas. Rather than treating 
these women as trafficking survivors, Chinese officials 
typically arrest them before deporting them. In the case of 
North Koreans apprehended, being returned home is worse than 
remaining in Chinese jails.
    Freedom House research has found that for political and 
religious activists, the abolition of reeducation through labor 
has brought little relief from the risk of detention. Prisons 
and detention centers appear to still be engaging in forced 
labor, including for religious detainees, political prisoners, 
and foreign nationals. And some of the products made this way 
appear to be imported into the United States.
    As for Cambodia, it is a testament to the threat of a 
potential downgrade that in February, the Cambodian Government 
launched a new national action plan on trafficking and 
restructured the national committee for counter trafficking. It 
is important that the 2015 TIP score reflect whether the 
Cambodian Government demonstrates commitment to implementing 
this strategy. I will say that my colleagues at the 
International Justice Mission believe that it should graduate 
to Tier 2, based on their prevalent studies of child sexual 
exploitation going down, but I think the larger picture needs 
to take account of also the matter of labor trafficking.
    Thailand. Well, Thailand is on Tier 3; it was last year. 
Many of the problems I highlighted in testimony right here 
before this subcommittee last year still remain--defective 
mechanisms for identifying victims among vulnerable 
populations, lax investigation, prosecution and conviction of 
perpetrators, inadequate regulations concerning labor brokers 
and recruitment fees, and official complicity in smuggling of 
migrants. It is good that Thailand passed a law. It is not good 
that prosecutions continue to be anemic in terms of 
implementation.
    In sub-Saharan Africa we have seen progress in many 
countries, including the passage of anti-trafficking laws but 
there, too, implementation remains an obstacle. Lack of 
accountability for those guilty of trafficking is the result of 
governments who are attacking the very actors who would ensure 
that anti-trafficking laws would be enforced--civil society 
organizations and independent media.
    Many of the countries on the Tier 2 Watch List in Africa 
have passed laws to limit the ability of these non-government 
groups to expose forced labor, sexual exploitation and the use 
of child soldiers. For instance, in Kenya, President Uhuru has 
tried to limit freedom of expression and association and 
efforts are underway to increase regulation of Kenyan NGOs. 
Freedom House operates there. Our partners say that that effort 
to increase regulation would give government control over NGO 
activities and their ability to accept foreign funding, and 
they wouldn't be able to hold officials involved in trafficking 
or complicit accountable.
    In Rwanda, President Kagame pledged to increase efforts to 
end trafficking in late 2014, but let us look at the 
implementation record. In an effort to clean up the streets, 
hundreds of vulnerable individuals including prostituted people 
and street children have been arrested, often without charge. 
The government has eliminated independent human rights 
organizations. Press freedom remains severely restricted. One 
might say that the watchdogs on trafficking have been leashed 
and muzzled. A Presidential waiver to remain on the Watch List 
in my mind would be farfetched.
    In the Middle East, the vulnerability of migrant workers 
and females makes it a particular hazard zone. Qatar is 
particularly troubling as it prepares for the 2022 World Cup 
soccer tournament, an effort rife with corruption. And there is 
heightened trafficking in the construction leading to those 
games. Corporations investing in Qatar and American 
universities like the one I used to teach at with campuses 
there have an obligation to raise trafficking with authorities.
    Bahrain. Other than Assistant Secretary of State Tom 
Malinowski, the United States has been all too muted in raising 
human rights in Bahrain. The U.S. naval base and the effort to 
mobilize a coalition to take on the Islamic State don't justify 
muted criticism on human rights. Bahrain got a waiver in 2014 
to remain on the Watch List based on a written plan it 
presented. If it hasn't met the TVPA standards, and it hasn't 
fulfilled its own written plan, it should get downgraded.
    Finally Saudi Arabia. The repression of women is even more 
pronounced in Saudi Arabia than other Middle Eastern countries. 
Small Gulf countries say that they have to have sponsorship 
laws, they have to have passport confiscation, they have to 
have housing, which actually in reality is prison-like, because 
the population is outnumbered by these foreign nationals who 
are migrant workers. Well, that lame excuse doesn't even exist 
for the Saudis. They aren't outnumbered. Smaller states look to 
Saudi Arabia. If it doesn't promote reforms there is very 
little hope its neighbors will.
    To respond to some of the points raised by Mr. Clawson and 
Mr. Meadows, I just want to say in terms of global trends let 
us remember that labor trafficking victimizes more people, but 
sex trafficking yields more profits to the traffickers. Both of 
those types of trafficking matter enormously. We must not 
forsake one to focus on the other.
    TIP rankings demonstrably propel the passage of laws, we 
know that. But absent external assistance you are not going to 
get the will and the capacity of countries to implement those 
laws. So, we need two things. We need to preserve the integrity 
of the TIP Report rankings, and then secondly we have to foster 
partnerships and leveraged resources in order to get that 
implementation. I commend the End Modern Slavery Initiative 
Act, S.553, championed by Senator Corker and endorsed by 
Freedom House, because in creating a partnership fund it would 
do just that.
    Let me close by saying a recent Freedom House report found 
that the U.S. and other democracies are less likely to press 
human rights issues with China due to strategic and economic 
interests. Well, there is a lesson to be learned for that for 
the TIP rankings. Countries failing to address modern slavery 
shouldn't get a pass simply because they are so-called 
strategically important countries. Thank you very much.
    [The prepared statement of Ambassador Lagon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
        
                              ----------                              

    Mr. Smith of New Jersey. Ambassador Lagon, thank you very 
much for your testimony and without objection your full 
statement, which went into even greater detail, will be made 
part of the record.
    Just starting from our left to your right, Father Cullen if 
you wouldn't mind being next, and then we'll go to Mr. Smith.

    STATEMENT OF FR. SHAY CULLEN, PRESIDENT/CHIEF EXECUTIVE 
                   OFFICER, PREDA FOUNDATION

    Fr. Cullen. Good afternoon. I am Father Shay Cullen, 
Catholic Columban Missionary and president and founder of the 
PREDA Foundation. We are a Philippine social development 
organization. So in the interest of time I will just make a 
brief summary of the written testimony.
    Okay, so Honorable Chairman, Ranking Member Karen Bass, I 
will greet you and all the members of the distinguished 
subcommittee. Thank you for inviting me here today. And I just 
wanted to share with you really personal experience working to 
address the widespread situation of human trafficking and 
particularly in the Philippines.
    My remarks focus on human trafficking for the purpose of 
commercial sexual exploitation and exploitation of innocent and 
blameless street children who are trafficked for begging and 
drug deliveries for the criminal gangs. Many, but not all of 
the child victims of trafficking who are used for begging, 
prostitution or being drug couriers are frequently confined in 
jail-like, subhuman conditions, instead of being helped as 
actually victims, and some are as young as 8 to 12 years old.
    When I previously testified before this subcommittee, it 
was a testimony regarding street children, some victims of 
human rights trafficking who were incarcerated in jails with 
adult criminals. A letter signed by members of this 
subcommittee and other members of the House to the then-
President Gloria Arroyo of the Philippines recommending the 
separation of minors from adults in the prisons had a very 
immediate, strong, positive effect at the time, and President 
Arroyo ordered this separation. However, the situation is even 
more grave today.
    Prison officials all over, they made a separation but into 
very small, overcrowded cells where even younger children were 
confined. As young as 8 years old are now being confined in 
small cells with subhuman conditions and with accused youth 
offenders of the ages of 17 and 18 years old.
    They are deprived of their human rights, of course. They 
are placed in grave circumstances of being physically 
neglected, starved, and abused. The small children, when 
rescued by social workers of the PREDA Foundation, are given 
protective shelter, therapy, counseling, and then they are able 
to reveal the extent of the abuse. Many children are trafficked 
for the begging on the streets. There are thousands of children 
all over the Philippines into the begging industry. Some of 
these small children are victims of the trafficking and brought 
into the city to beg for organized criminal syndicates or else 
to be exploited as drug couriers. While the juvenile justice 
welfare law, R.A. 9344, disallows criminal liability for 
children 15 years and younger, many are still imprisoned now in 
dire circumstances contrary to law.
    Now I will just give you a few quick pictures of what we 
are talking about here, very young children, and this is just 
over the past year or so.
    [Slides.]
    Fr. Cullen. We are not talking about isolated incidents, 
no, of some children by accident put in a jail. This is going 
on for years in the Philippines. We are challenging it. We are 
trying to get it changed as much as possible. And it indicates 
the systematic neglect and the abuse, not of just a few 
isolated incidents, as some of the Philippine Government 
officials would like all of us to believe.
    Some are claiming, government officials, that the 
photographs you see here, shocking as they may be, are not 
genuine, or they insidiously say they were released for 
fundraising purposes. But I have taken many of these personally 
myself.
    The centers where these photographs of the--take for 
example we have the pictures here of the children behind these 
cages and children that are, like these starved children, this 
is like the image from a concentration camp. And this is 
genuine, taken in a Manila center for children under the Manila 
Government, until recently, and that is how they treat many of 
the children there.
    So this child--our campaign and rallies, we managed to 
close down that government center due to the result of good 
media coverage. There are still many other centers where reform 
is needed. This was also a violation of the children's rights, 
this attitude, a complete disregard for the human rights and 
the concern and the suffering of children. And these are just 
kids who were accused of begging on the streets but controlled 
by the syndicates.
    So there are many other centers and we are challenging the 
government in this. It was a big controversy during the visit 
of Pope Francis, and even because of these images, our Web site 
was hacked and knocked offline. So we have since restored our 
Web site, indeed, our images of the truth. Pictures of the 
truth have to be displayed. We are not giving up.
    Human trafficking of young people and some as young as 18 
months old, this is the most, latest terrible tragedy of 
children which are being trafficked and sold to international 
pedophiles for making of these horrific movies, videos which 
are sold here in Europe and the United States, and the police 
have found these terrible images.
    The children for exploitation are used by this particular 
case, which we have on record which is quite horrific, making 
videos for the commercial exploitation and used by sex 
tourists. Some of these videos have been sold, and the Dutch 
police and the Australian police in recent months gave shocking 
evidence showing children as young as 18 months old being video 
taped, the one tortured, sexually assaulted and murdered. Other 
children 6 and 12 years old have been victims of torture and 
sexual assault and also videoed. One video is entitled ``The 
Destruction of Daisy.'' The videos are commercially distributed 
over the Internet and sold even in the United States, the UK 
and European countries.
    We also have a problem for many of the victims of 
trafficking in brothels used for sexual exploitation and the 
growth of this human trafficking is linked of course to the use 
of the Internet promoting sex tourism, which is a growing 
business, and for transmitting images of child pornography 
which are, as I said earlier, made in the Philippines. Some 
victims of human trafficking are subjected to several human 
rights violations and forced abortion is one of them, but these 
are quite difficult to prove because of the secrecy, the lack 
of medical and forensic evidence. And it is done illegally and 
secretly. It is revealed by the rescued victims in therapy and 
through their oral narratives they tell us what has happened to 
them and how they are forced into doing this.
    Anyway, the Philippine Anti-Child Pornography Law is 
something which we helped to, the NGOs, to pass this in 2009, 
and it mandates that Internet service providers in the 
Philippines filter and prevent such images of sexually 
transmitted sex acts. The cyber-sex is a big business there. 
Thousands of children are sold into these dens and shown live 
over the Internet for payment through credit cards. The 
telephone companies actually in the Philippines, many of the 
shareholders are U.S. nationals. You can check, we checked it 
out online and we submitted some evidence to that.
    But among the top 100 shareholders who are violating the 
law, the law is not practiced in any way whatsoever. There are 
no filters in place as demanded by the law. They seemingly have 
placed themselves above the law and it is possible they get 
away with it with collusion of Philippine Government officials. 
So the Philippine National Telecommunications Commission is 
responsible for the implementation of the regulations that 
would implement the law, so in addition to the Anti-Child 
Pornography Law they are also, allegedly, violating with 
impunity the Public Telecommunications Policy Act of 1995 and 
Executive order 546.
    Forty percent of tourists come for sexual exploitation. We 
must keep in mind they too from the side of the Americans say 
return to the U.S.A. and they will be endangering children in 
this country. And thousands of young people, many are underage, 
are very vulnerable to these foreign nationals and locals who 
will prey upon them and to supply this demand of the sex 
tourist industry.
    Well, as the former Ambassador to the Philippines, the U.S. 
Ambassador Harry K. Thomas said in his time in 2013, 40 percent 
of male tourists to the Philippines go there for sex tourism. 
It was quite a controversial statement. He withdrew that 
comment later under a lot public outcry, but there was no way 
they could really deny the reality and the truth. It has become 
a destination for sex tourists, despite Philippine denials.
    We just add a little note to say that the return of the 
U.S. Military into the Philippine Navy bases now in the last 
weeks alone the numbers are increasing very much, and we 
understand that they are already engaged now in the sex tourist 
business. Well, we made a little assessment of what the 
Philippine Government is doing to defend the children and stop 
this trafficking. There is a strong political commitment by 
President Aquino, and we recognize it. And also we work closely 
with the Justice Secretary de Lima, and the Office of the 
Ombudsman are fighting corruption quite strongly in the 
Philippines and have some notable successes.
    But their effort to address the widespread and the 
spreading of human trafficking, unfortunately, is not so very 
successful. And even the implementation of the law by police 
and prosecutors results in very low arrest and conviction 
rates. I think it is 15 years the TIP Report saying only 150 
convictions and that is why the Philippines is on Tier 2. It is 
not so great.
    Anyway the grave, we know of course, economic inequality is 
quite shocking there in the Philippines, and the very rich 
elite, no, of a 140 families running the country of 100 million 
people. It is not a really true democracy in this sense. There 
is a developing middle class growing quite strong, but the gap 
between rich and poor is growing greater and greater.
    Corruption by some members of the prosecution and the 
Departments of Defense and the judiciary is preventing the 
prosecution and really creating the rule of law. It is a 
mockery in many cases. This is why it is spreading without 
control. They just don't recognize the law for being the law. 
And what is right and good and true, they just don't give it 
the value and dignity it deserves. So the slow pace of the 
judicial process, it can take 4, 5, 6 years to complete a 
single case. And others is the corruption where they reduce the 
charges against foreigners from trafficking, they reduce it to 
child abuse so they can escape. They get to the airport; they 
are gone.
    Another problem we heard earlier that we are dealing with 
is those of us defending human rights and trying to protect the 
children and implement the law as best we can because we 
prosecute as many offenders as we can and so we know the legal 
problems. But the death squads as used in the past, and I am 
sure it is being recorded, but still very active today, we are 
sad to say. And Human Rights Watch has done very thorough 
investigations about the death squads and interviewed some of 
the assassins. No, quite shockingly what they revealed, how 
they were paid by mayors to kill over 150 unwanted opposition 
people.
    So this is what we are up against. So we as in these places 
where there is a lot of trafficking and the traffickers operate 
they do so with impunity and human rights workers and anti-
traffickers--we feel very vulnerable. There is in danger of 
retaliation.
    So all I can say in closing and draw to the attention of 
the subcommittee, we submitted the report of Human Rights 
Watch, ``One Shot to the Head,'' which is the death squads 
going on very recently up to the present in the Philippines, 
and that you know many human rights workers, activists, 
priests, pastors have all been assassinated, including many 
journalists. We are number three in the world as the most 
dangerous place for journalists. And as I, a journalist, writer 
myself, I am feeling the pressure quite a lot, the death 
threats and all that stuff.
    Amnesty International has a very strong report on torture, 
revealed the wheel of torture where they played with the 
victims before they torture them, and we know that some police 
are sadly protecting these traffickers. So the Philippine 
Government is striving to address the problem at the top, but 
unfortunately they are not able to solve it and going down to 
the bottom to the streets and where it is all happening.
    And the U.S. State Department is lauded because they work 
quite well in the Philippines with us and we have implemented 
all of these programs with the help of USAID very recently 
working. And what we need is a reform of police, judiciary, and 
local government because they issue permits for the sex 
brothels and the sex tourist places to operate, and so this 
must be greatly restrained to reduce sex trafficking. So 
children trafficked must have greater protection, shelter, and 
assistance. Suspects must be prosecuted in a robust manner with 
the greatest integrity. So thank you.
    [The prepared statement of Mr. Cullen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith of New Jersey. Thank you very much for your 
testimony and also for your leadership in defending the weak 
and the vulnerable. Thank you.
    Mr. Smith?

  STATEMENT OF MR. MATTHEW SMITH, EXECUTIVE DIRECTOR, FORTIFY 
                             RIGHTS

    Mr. Smith. Thank you very much, Mr. Chairman, other 
distinguished members of the subcommittee. Thank you for the 
invitation to be here today. It is a real honor and we are very 
pleased to be able to share some of our work with you. On 
behalf of my colleagues I would especially like to thank you 
for your work to end human trafficking worldwide.
    I would like to focus my remarks on some of our findings 
related to a few of the countries we are working in, namely, 
Myanmar, Thailand, Malaysia, and Bangladesh. Specifically I 
would like to draw attention to the exodus of the Rohingya 
Muslims from Myanmar which the chairman mentioned in his 
introductory remarks, exodus of Rohingya Muslims from Myanmar 
and Bangladesh and to the situation of armed conflict on the 
Myanmar/China border.
    Now we have recently conducted hundreds of interviews with 
witnesses and survivors of abuse, and I have also conducted 
interviews with more than a dozen brokers and human traffickers 
who are either directly involved in human trafficking or 
otherwise knowledgeable of the trade, the illicit trade. The 
Rohingya, as you may know, are an ethnic and religious minority 
from western Myanmar. There are currently more than 650,000 
Rohingya displaced in Myanmar and in Bangladesh, and this 
particular segment of the Rohingya population is particularly 
at risk of human trafficking.
    With regard to why Rohingya are getting on boats, we heard 
a little bit about, and I will just share what we have 
documented over the last couple years, and in the last year. In 
Myanmar they faced killings and coordinated arson attacks. 
Rohingya are facing avoidable deprivations in humanitarian aid, 
protracted and targeted policies of discrimination. The 
Government of Myanmar has essentially implemented an apartheid-
like segregation in Rakhine State.
    We have documented widespread and systematic forced labor 
of Rohingya by the Myanmar Army and other state security forces 
and this includes child forced labor. We have also documented 
systematic rape of Rohingya women and girls with complete 
impunity. The government continues to deny Rohingya citizenship 
and imposes restrictions on freedom of movement, marriage, 
childbirth, and other aspects of everyday life.
    These abuses and policies have given Rohingya very few 
options but to flee the country and essentially flee into the 
clutches of transnational criminal syndicates. Meanwhile, 
authorities have been complicit in and profited from the 
trafficking of Rohingya, in some cases taking payments directly 
from criminal syndicates and in other cases actually escorting 
boats out to sea.
    With regard to Bangladesh, following the violence in 
Rakhine State in June 2012, the Government of Bangladesh made 
the unconscionable decision to close its borders to Rohingya 
and to restrict humanitarian aid to the refugees. This of 
course has led many Rohingya, likewise, to flee into the 
clutches of transnational criminal syndicates and to take risky 
journeys by sea.
    When Rohingya board ships from Bangladesh or Myanmar, they 
are typically deceived into thinking they will be comfortably 
taken directly to Malaysia. Instead, passengers become 
abductees on these ships. They are held in conditions of 
enslavement for the purposes of exploitation. They are not 
destined for Malaysia of course but most typically directed 
through Thailand. These people have been crammed into boats, 
denied adequate food, water and any freedom of movement. We 
have documented killings and rapes, beatings and other abuses 
at sea.
    Once they get to Thailand, they are typically herded like 
animals into horrific camps that are located in remote jungle 
areas or on islands. At these locations they are given the 
option to buy their freedom for up to $2,000, or in other cases 
they are simply sold into another exploitative situation. We 
have documented how Rohingya women and girls have been sold 
into forced marriages in Thailand and in Malaysia. Thailand's 
fishing sector, as has been mentioned here today, has become 
notorious for employing slave labor.
    I recently had the opportunity to meet with some senior 
Thai officials to discuss some of these issues, which was a 
welcomed opportunity. Thailand's Military leader General 
Prayut, whom I have not met, has vowed to prosecute and punish 
traffickers, but Thailand as mentioned has prosecuted fewer 
traffickers in 2014 than it did in 2013.
    In 2014, Thai authorities reported a mere five trafficking 
cases involving Rohingya. General Prayut likewise warned the 
media to not publish news about human trafficking, and the Thai 
Navy has failed to drop charges against two journalists for 
reporting about human trafficking.
    In Malaysia, unfortunately, the situation is not much 
better. In many cases human traffickers transfer Rohingya to 
situations of debt bondage or similar situations of captivity. 
Like in Thailand, there is no real legal framework in place to 
regulate the status or protection of refugees in Malaysia, and 
this of course contributes to the problem of human trafficking.
    Refugees and asylum seekers in Malaysia are treated as 
illegal migrants. They are subject to arrest, detention and 
deportation. Authorities routinely extort money from them in 
Malaysia. Predictably, asylum seekers rarely report abuse or 
exploitation to Malaysian authorities out of a fear they will 
be arrested or detained, rather than protected.
    Lastly, as mentioned we have been working in the conflict 
zones in northern Myanmar, where war between various ethnic 
armies and the Myanmar Army has raged since June 2011. This 
conflict over the last several years has displaced more than 
170,000 civilians. We have documented torture, killings, 
attacks on civilians, and forced labor committed on the front 
lines of the conflict near the Myanmar/China border. The 
Government of Myanmar currently restricts aid groups from 
delivering assistance to displaced communities in Kachin and 
northern Shan States creating a ready environment for 
trafficking to China. Displaced women and girls are 
particularly at risk of being abducted, deceived or forced into 
marriages in China.
    The use of recruitment of child soldiers is another issue 
that we have been focusing on. This likewise continues to be a 
problem in northern Myanmar and other parts of the country. 
Accountability for the use of recruitment of child soldiers in 
Myanmar continues to be very, very weak.
    In conclusion, Mr. Chairman, we believe Myanmar, 
Bangladesh, Thailand, and Malaysia have failed to meet the 
minimum standards for the elimination of trafficking. It is a 
view of Fortify Rights that these countries should be relegated 
to Tier 3 status. Thank you again for the opportunity to be 
here to share with you and I would be very happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                                  ----------                              

    Mr. Smith of New Jersey. Thank you so very much.
    Mr. Eaves?

STATEMENT OF MR. JESSE EAVES, DIRECTOR OF POLICY AND GOVERNMENT 
                   RELATIONS, HUMANITY UNITED

    Mr. Eaves. Well thank you so much, Mr. Chairman, for 
convening this incredibly important hearing and for inviting us 
to testify. Both you and Ranking Member Bass and the other 
members of the subcommittee have really been leaders in the 
fight against human trafficking, forced labor, and modern day 
slavery around the world and thanks to your tireless efforts, 
America remains a global leader in combating these atrocious 
crimes. So it is my pleasure to be here today representing 
Humanity United and our partners around the world who are 
working to combat modern day slavery.
    Humanity United is a philanthropic organization based in 
San Francisco, California, and it was started by Pam and Pierre 
Omidyar to build peace and advance human freedom around the 
globe, and we have been working on ending modern slavery for 
over a decade. Now this hearing is really an opportunity to 
shed a light on the critical importance of the United States in 
combating trafficking.
    In 15 years on since the Palermo Protocol, and the original 
Trafficking Victims Protection Act that you authored, Mr. 
Chairman, almost every country in the world has laws that 
address human trafficking to some degree. And much of the 
credit for the rise in action against slavery can be attributed 
to the work of the State Department's Office to Monitor and 
Combat Trafficking in Persons. A strong TIP office with strong 
tools is a powerful catalyst for change and it holds countries, 
including the U.S., accountable for their actions or inactions 
against human trafficking.
    But if these tools are compromised or the TIP office 
weakened, we really stand to lose much of the ground that we 
have gained over the past 15 years. And the opportunity is now 
and the tools are definitely available to make U.S. engagement 
more coordinated, effective and efficient in tackling human 
trafficking.
    So Mr. Chairman, obviously the TIP Report is a critical 
resource to organizations like Humanity United and, though may 
loathe to admit it, countries around the world. Whether a 
country governments denounce the TIP Report or rejoice in their 
rankings, the TIP Report is a key driver for national change 
and we have seen that again and again around the world.
    The leverage and impact of the TIP Report is and remains 
that there are consequences to where a country is placed on the 
tier rankings. Countries don't want to be known as having 
failed to meet the minimum standards or to be a safe haven for 
traffickers, and if they fail to meet those minimum standards, 
there are real consequences in the form of targeted U.S. 
sanctions. So between moving a country to act and then 
providing funds to help them take the first steps, the TIP 
Report and the resulting assistance programs that the TIP 
office manages create real change on the ground.
    So for instance in the Trafficking Victims Protection 
Reauthorization Act of 2013, it included key provisions of the 
Child Protection Compact Act which you wrote and championed, 
Mr. Chairman. This legislation allows the State Department to 
partner with a government and set measurable goals over a 
multi-year period to strengthen the protection systems for 
vulnerable children and improve justice systems so that they 
investigate and prosecute those that would exploit a child.
    And just this year, the trafficking office announced its 
intention to sign the first ever Child Protection Compact with 
the country of Ghana. So this is a tremendous opportunity to 
partner with a country that has historically not received much 
trafficking in persons program funding but has a high 
prevalence of trafficking, particularly of children. And there 
are several reasons for excitement over this new effort.
    So first, while attempts to address child labor and other 
abuses in the cocoa industry have been ongoing for a decade, 
other sectors such as fishing, gold mining, forced begging, 
domestic labor exploitation, and forced prostitution all remain 
a problem. Second, launching this pilot effort in Ghana is a 
regionally smart choice. Many countries in sub-Saharan Africa 
face extremely low capacity to adequately address the issues 
raised in the TIP Report. U.S. partnership will go a long way 
to elevate the work of our partners who are addressing the low 
capacity of these governments and of local communities to help 
enable them to tackle human trafficking more effectively.
    So, for example, International Justice Mission is working 
to strengthen the justice systems to address slave labor in the 
fishing industry in Lake Volta, and Free the Slaves is working 
in cocoa and gold mining communities to address the root causes 
of vulnerability through a focus on education. So the funding 
for the Child Protection Compacts bolsters U.S. credibility and 
should absolutely continue, but so should overall funding for 
anti-trafficking programs at large.
    The TIP office currently funds projects in 76 countries. 
However, these grants are typically very small and very limited 
in scope, and last year the TIP office received applications 
for a $107 million with the programming, but was only able to 
provide $18 million. So that is $18 million put up against a 
$150 billion industry. So we see from the testimony today that 
the TIP Report, the TIP office and the U.S. Government's 
overall efforts to combat human trafficking raised the level of 
accountability and transformation that can occur around the 
world.
    So with this activity, however, there is one glaring gap, 
and Ambassador Lagon raised this right at the top of his 
testimony. The Trafficking in Persons Ambassador position at 
the State Department has been vacant for 5 months, and the 
absence of a TIP Ambassador jeopardizes U.S. leadership, 
period. Without an ambassador, the transformational impact of 
the TIP office is severely limited, so the administration has 
to appoint a strong TIP Ambassador immediately, especially as 
we enter this critical period prior to the release of the TIP 
Report.
    So Mr. Chairman, the TIP Report remains a critical element 
in this fight against human trafficking around the world, but 
we obviously still have work to do. Yourself, and Members of 
Congress, have given the administration good tools and it is 
critical that we work together so that these tools are not left 
to rust in the toolbox. We in civil society stand ready to 
deepen the conversation and work with you to ensure that 
together as partners we are on a path toward eradicating human 
trafficking and modern day slavery and advancing the cause of 
human freedom.
    So thank you so much for this opportunity and for holding 
this hearing and I look forward to your questions.
    [Mr. Eaves did not submit a prepared statement.]
    Mr. Smith of New Jersey. Mr. Eaves, thank you very much for 
your leadership and for your testimony, all of you.
    We do have some votes that will be triggered in probably 5 
or 10 minutes, if not sooner, so I thought I would ask a series 
of questions and perhaps my good friend and colleague Mr. 
Meadows might, and as best you can if you could pick through 
those questions, and otherwise a lot of questions will lay on 
the table. We will get some additional ones to you and if you 
could get back to us in the record.
    Let me just begin, Ambassador Lagon. With you, with China, 
you were very strong in your statements about China. Do you 
believe China should be Tier 3?
    Ambassador Lagon. Yes, I do.
    Mr. Smith of New Jersey. You pointed out in your testimony 
one of the drivers, and when you were Ambassador was the one 
who finally put those two together that those missing daughters 
in China, many of whom now are--it is right through a couple of 
generations. The one-child-per-couple policy has been in effect 
since 1979.
    But you point out that the missing girls, the missing 
females has become a magnet for the traffickers, particularly 
for the countries in proximity to China. That shows no sign of 
abatement, if anything it is getting worse. Unfortunately, Xi 
Jinping has shown no, I mean the talk of reforming the one-
child policy was what they have done previously with talk. It 
is basically talk for international consumption but very little 
in terms of on the ground; if you could speak to that.
    And you did point out, and I thought it was a very 
important point that you brought out. When we did the 
Trafficking Victims Protection Act, there was a sea-change in 
how we look at the women who are exploited, the children, all 
of the exploited ones as victims, rather than perpetrators of 
crime. And you pointed out that the women, when they are 
apprehended by the Chinese Government, are treated by 
criminals. If you might want to expand upon that if you would.
    I would point out, and kudos to the Associated Press for 
the tremendous work they did with their year-long 
investigation. It might have even been longer with regards to 
Thai food, of tuna especially. I recently went to a store and 
picked out some Bumblebee tuna and one was made in Thailand, 
the other said made in China. They were right next to each 
other. So my thought is there is probably a whole lot of 
wrongdoing going on on the Chinese side, too, as well as 
exploitation of fishermen and right through the supply chain 
that needs to be looked at.
    But they did enormously good investigative work to bring 
all of this forward, and hopefully General Prayut will follow 
through as he seems to have indicated he would to end this 
egregious practice. But hanging in the balance is whether or 
not Thailand, again, is replaced or put back on I should say on 
Tier 3, and many of you wanted to speak to that.
    But again I want to thank Martha Mendoza and the Associated 
Press. Without objection, their report will be made a part of 
the record.
    And we also ask you, Father Cullen, your points upon the 
exploitation in the Philippines. In late 1980s, early 1990s and 
one of my brothers was a fighter pilot on the USS Enterprise. 
He flew A-7s. And he was appalled.
    We had talk after talk about how when our ships would come 
in they, would make a beeline to places of exploitation of 
young girls, many of them underage. And then when the guys came 
back, they would line up at sick bay to take care of an 
assortment of sexually transmitted diseases, but meanwhile 
leaving behind an exploited young girl.
    I have a bill that I have been working on for 8 years 
called the International Megan's Law, which again coincides 
with what you talked about, U.S. citizens as well as others 
making their way into the Philippines to exploit little 
children. This would advise the country of destination in a 
timely fashion of any convicted pedophile, Megan's Law 
registrees, of the travel plans of that individual. It has 
passed the House three times, just passed again in January. It 
remains in the Senate. My hope is that the Senate will take it 
up and pass it and get it to the President.
    But if we don't start noticing and taking action, you can't 
stop them, perhaps, from traveling but you can tell the 
Philippines they are coming. You can tell Bangkok they are 
coming. And they can deny them a visa or they can take other 
appropriate means. And you might want to speak to that.
    And you did mention in your testimony, Father Cullen, about 
the U.S. ships coming in, whether or not you are seeing a 
resurgence of that kind of exploitation. I say that because 
when we learned that in Korea, that many U.S. servicemen, and I 
actually got a video from an investigative reporter, not unlike 
at the AP, who worked for the Fox News from Ohio who showed me 
a video of women in Filipino juicy bars, as they 
euphemistically call them, where they were being exploited. 
There were Russian women there and mostly Filipino women and 
they couldn't leave.
    And Bush, to his everlasting credit, President Bush issued 
a zero tolerance of policy and made it actionable under the 
Uniform Code of Military Justice if any service members are 
involved with trafficking or prostitution. So if there are 
those kinds of things happening and men are exploiting women in 
the Philippines, please give us that information because it is 
actionable.
    And it looks like we are being called for a vote, but if 
you could speak to that. I have many many other questions, but 
I will go to my friend Mr. Meadows.
    Mr. Meadows. I will be very brief. We have got a series of 
questions that we will get to all of you and you can respond. 
But Ambassador, I want to come to you. And one, thank you for 
your work, but piggyback on something the chairman was talking 
about in a meeting that he and I participated in almost 2 years 
ago now.
    I found it just interesting that the head of the U.N. was 
not aware of, according to him, of some of these issues that we 
have highlighted today in China, specifically in China, he 
acted like it was the first time he had heard about it. So my 
question is this, what can we do on the international scene? 
One is an awareness here in the United States to do something 
about it. What can we do to make more of an emphasis 
internationally, other than a TIP Report or sanctions or 
anything else that obviously doesn't happen, how can we best do 
that? So I will let you answer that.
    And then the other is the Invisible Girl project as you 
know has looked at the root cause, primarily in India which is, 
I think, a Tier 2 country right now. But that imbalance that 
the chairman was talking about in China and we are also seeing 
in India. Does that imbalance where really abortions create 
that imbalance, does that increase the trafficking that we are 
seeing both in India and in China?
    And I will leave it to you. I want to thank each of you for 
your work. My daughter first let me know about this 
unbelievable, horrific blight on our world when she was 15. She 
did a report on it; she has been actively involved in it. And 
so for all of those that are listening out there, you never 
know who is listening to you. And little did she know that her 
bringing, that up that her dad would be a Member of Congress 
and be here in a hearing today. And so I just want to say thank 
you so much for continuing to speak up for those who can't, Mr. 
Ambassador.
    Mr. Smith of New Jersey. And before we go to questions, we 
do have a few more minutes. Father, you talked about forced 
abortion for trafficking victims. That is the way that the 
traffickers deal with a woman, or a young girl, who becomes 
pregnant.
    We had a situation in my own state where a group called 
Live Action, a sting operation was done with Planned 
Parenthood. And a would-be, fake pimp with a young Hispanic 
girl went into one Planned Parenthood after another, including 
at Perth Amboy where I went to high school, and to my shock 
because I have watched the video, I have watched it many times, 
the Planned Parenthood representative said we can get her an 
abortion, she was 13, and get her back on the street.
    And at one point the Planned Parenthood person said, again 
from an area where I went to high school, Perth Amboy, said she 
may not be all that good from the waist down but she will be 
usable from the waist up. I was sickened. I was angry. No 
action was taken by prosecutors against that. And yet we know 
throughout the world that the collaboration of the abortion 
industry and trafficking of victims is very real. And I'm 
wondering now or in the future if there are any NGOs that you 
know of that are participating in that kind of--this was 
Planned Parenthood in Perth Amboy, New Jersey, and just was an 
eye-opener to me because we know this is going on all over the 
world, and what other NGOs are complicit in exploiting that 
young little girl when she was like 13 that they were talking 
about. So if you could speak to that as well.
    And then, Ambassador Lagon, on Rwanda you said watchdogs on 
trafficking have been leashed and muzzled. That is outrageous. 
We are planning a Rwanda-specific hearing in the coming weeks. 
I would like to elaborate on that at that hearing. So please 
proceed on all the questions.
    Ambassador Lagon. With apologies. As I told your staff in 
advance, I am co-hosting an event at the National Endowment for 
Democracy for just such journalists from Africa who are being 
muzzled, and I am going to need to go. If I may, in a minute, 
respond to your questions.
    You said, poignantly, that when numbers go into the 
millions they become statistics, and they are not treated as a 
human story. But the gender imbalance in places like India and 
China as a function of policy and a function of cultures that 
don't value girls, it causes a problem. It is a market dynamic 
and it spikes the demand for both buying brides and for the sex 
industry. When added to it, is a heartless policy by China to 
treat refugees, people who are really refugees from North Korea 
as economic migrants and they just be sent home and their 
traffickers or their exploiters can hold that over their head, 
it is much worse.
    You asked for a larger answer. It is not only in the lap of 
business, but it is in my view that it is very important for 
the governments and the NGOs that are out there to work in 
partnership with businesses. They have an interest in not 
having their business operations tainted by this, so that those 
cans of tuna are not tainted by slavery on the high seas or in 
seafood processing plants like those that I visited in Samut 
Sakhon in Thailand.
    I am sorry I have to go, but I thank you for your 
leadership.
    Mr. Meadows. Thank you, Ambassador.
    Fr. Cullen. Okay, I will just answer quickly. I know time 
is of the essence. But the abortion, forced abortion of young 
girls. Of course when they get pregnant, in the sex bars and 
clubs it is common knowledge. It is evidence of a crime. It is 
evidence that the child can point to the father. Sometimes at 
the sex bars in our areas, especially Angeles City, the big 
areas, Olongapo, they are operated by U.S. nationals, some of 
them foreign nationals, and therefore if the young girl in the 
bar, many of them underage, get pregnant, of course they have 
to eliminate the evidence. So that is one of the big drives 
behind the abortion in the industry. It is not to recycle the 
girl again, they can get so many from the countryside. So that 
is how we see it.
    And they get away with it because of the rule of law in all 
areas and anti-trafficking is so miserable. It is so I mean 
prevalent that is just so hard to implement even basic laws, 
never mind the Anti-Child Pornography Law, which is totally 
ignored. And we could have saved a lot of children from being 
abused if only make it quite problematic for them to transmit 
this one.
    The second is tourism. The business of the name of sex 
tourism has to be damaging the whole economy of it and 
government officials just can't see it. However, corrupt 
politicians who own the hotels, the properties and so on, they 
will promote sex tourism because of--their hotels are full of 
these people. And even the other kind of tourism, you will find 
on the Internet, as we have researched, and you will see like a 
diving school in a remote island, and the advertisement is 
bring your own girls. Pick them up in Angeles City and bring 
them with you.
    So the military, just that one and now coming back in 
again, and this new extended Visiting Forces Agreement is 
opening up Philippines as a gimmick to get around the 
constitutional ban on military facilities in the Philippines. 
So we see that more and more of these Philippine Military bases 
are being turned into the sort of proxy military bases for U.S. 
troops.
    Now that is all good, but they have a way around the law. 
We are aware of the good law that was banning these. They don't 
go to the sex bars even though there'll be advertisements, 
welcome you as Navy or Air Force, but what they are doing as we 
have discovered very recently with my staff, they are renting 
hotels. Somebody is promoting this. rent hotels, they stock 
them with young girls, and then the sailors check in the normal 
way but their room is already occupied. It is a technique to 
get around this and of course the poor women are already 
trapped and there is no way out, so those few remarks kind of 
focus on how the tricks of the trade go.
    But local government is for us, okay, the national 
government, they cannot, I mean at the level of the national 
government they cannot reach this problem. It is local 
government who are the most corrupt. They give the permit to 
the sex bar, and as I say foreign nationals run a lot of these 
bars.
    Mr. Smith of New Jersey. Mr. Smith?
    Mr. Smith. Yes, sir. With respect to the question about 
Thailand, as mentioned it is our view, and we do regret it, but 
it is our view that Thailand should continue at Tier 3. There 
have been some efforts that have been made which you have 
highlighted particularly registering migrants, I would just 
like to emphasize this is still an ad hoc policy. Thailand has 
had an enormous population of refugees and migrants for quite a 
long time so this is still an ad hoc policy.
    The government is currently directing migrants who want to 
register, which of course would help them avoid situations of 
exploitation, the government is still directing them to 
brokers. When they are directed to brokers there are situations 
of corruption and exploitation. In some cases it is 
exploitation on top of exploitation. Refugees are still held in 
detention, and this is of course a word that the authorities do 
not like to use, but the facts of the matter is that refugees 
are still behind bars. We have visited them.
    I regret actually not bringing pictures after seeing Father 
Cullen's photos. There have been preventable deaths in 
detention, so we are talking about not only refugees being held 
in detention, people are dying in detention. They don't have 
enough food. And these are primarily the cases that we focused 
on, Rohingya Muslims. Local Muslim communities are providing 
food and basic necessities to people who are within government 
custody because the government is not providing that for them.
    There is still a help-on policy, thousands of boats 
arriving. And as I mentioned there were only five cases 
involving Rohingya, trafficking cases in 2014. This is a policy 
that continues today. It is our understanding, as right now, as 
we speak there are over 1,000 people being held in a torture 
camp on the border of Thailand and Malaysia, right at this 
moment. We are not seeing any raids on these camps. It is our 
understanding that the authorities know where these camps are, 
but the objective is to usher the asylum seekers to Malaysia. 
And the justification for this is that, well, the Rohingya want 
to go to Malaysia.
    So there are some serious problems still happening there, 
and of course this help-on policy where boats are just pushed 
back out to sea is in violation of the principle of non-
refoulement, so we remain very concerned about that as well. 
Thank you.
    Mr. Smith of New Jersey. Mr. Eaves.
    Mr. Eaves. Well, in relation to Thailand we have seen yet 
again, as we see every year, the debate between the regional 
bureau in the State Department and the Trafficking in Persons 
office over where to place a country. This year in particular 
there has been incredibly strong pushback. You have the Trans-
Pacific Partnership in play, you have Thailand as a potential 
regional ally militarily and otherwise, so the pressure is very 
strong. But based on what we are seeing on the ground, based on 
the media reports, the partners that we fund, we definitely 
feel that Thailand would need to remain on Tier 3 for another 
year. We have seen some positive vocal statements, but nothing 
has actually been implemented yet.
    And I think to what Representative Clawson was saying 
earlier, we are actually seeing the marketplace and the 
corporate sides start to add some pressure as well. 
Corporations are being forced to deal with this and we are 
seeing the private sector step up and start to put pressure on 
the Thai Government to create a regulatory framework that they 
can work under so that they can start to address this 
entrenched issue of exploitation within their supply chains.
    Mr. Smith of New Jersey. Thank you so very much. We do have 
to vote. They are out of time on the floor so I am going to 
have to run, but I thank you. Anything that you want to send to 
us to augment your testimonies, all of which will be made a 
part of the record, and I thank you for not just the 
preparation and the thought that went into it but above all, 
your leadership. And it is so deeply appreciated, and thank you 
for defending those who are at risk.
    The hearing is adjourned.
    [Whereupon, at 4:04 p.m., the subcommittee was adjourned.]
                                     
                                    

                            A P P E N D I X

                              ----------                              


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
